                                                                Issue Date
                                                                        January 20, 2012
                                                                
                                                                Audit Report Number
                                                                             2012-KC-1001




TO:        Brenda L. Waters, Director, Kansas City Multifamily Housing Hub, 7AHMLAS
           Craig Clemmensen, Departmental Enforcement Center, CACB

           //signed//
FROM:      Ronald Hosking, Regional Inspector General for Audit, 7AGA


SUBJECT: John Calvin Manor Violated Its Regulatory and Loan Agreements With HUD
            and Inappropriately Made Salary Payments to Its Board President


                                  HIGHLIGHTS

 What We Audited and Why

            We audited John Calvin Manor of Lee’s Summit, MO, in response to a request
            from the U.S. Department of Housing and Urban Development’s (HUD) Office of
            Multifamily Housing in Kansas City, KS. Our audit objective was to determine
            whether the property violated its regulatory and loan agreement with HUD.

 What We Found


            The property violated its regulatory and loan agreements with HUD by
            improperly spending restricted funds, defaulting on its mortgage payment, and
            failing to submit financial statements to HUD. In addition, it inappropriately
            made salary payments to its board president.
What We Recommend


           We recommend that HUD should develop a plan with the property to reestablish
           and fully fund its reserve for replacement account, debt reserve account, and
           tenant security deposit account and become current on its mortgage obligation.
           We also recommend that HUD work with the property to seek reimbursement
           from the former board president for the ineligible compensation he received and
           take appropriate administrative actions against the former board president up to
           and including debarment.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided the draft report to the property on January 3, 2012 and requested a
           response by January 17, 2012. The property provided written comments on
           January 13, 2012. The property agreed with our findings and recommendations.

           The complete text of the auditee’s response can be found in appendix B of this
           report.




                                            2
                            TABLE OF CONTENTS

Background and Objective                                                          4

Results of Audit
      Finding 1: The Property Violated Its Regulatory and Loan Agreements With    5
                 HUD

      Finding 2: The Property Inappropriately Made Salary Payments to Its Board   10
                 President

Scope and Methodology                                                             12

Internal Controls                                                                 14

Appendixes
   A. Schedule of Questioned Costs                                                15
   B. Auditee Comments                                                            16




                                            3
                       BACKGROUND AND OBJECTIVE

John Calvin Manor, a Missouri nonprofit corporation governed by a board of directors, was
formed in 1965. The property is a 100-unit assisted living facility located in Lee’s Summit, MO.
The U.S. Department of Housing and Urban Development (HUD) funded the construction of the
property under Section 202 of the Housing Act of 1959 in the amount of $1 million. The board
entered into a 50-year mortgage agreement with HUD in October of 1967.

The Section 202 program helps expand the supply of affordable housing with supportive services
for the elderly. It provides very low-income elderly individuals with options that allow them to
live independently but in an environment that provides support activities such as cleaning,
cooking, and transportation. In addition, the property is authorized to receive Section 8 rental
subsidies for 84 of its 100 units. It received $79,788 in Section 8 funding from September 2008
to September 2011.

The property employed an onsite manager to oversee day-to-day operations. The board is
ultimately responsible for ensuring that the property is operated in accordance with its regulatory
agreement and applicable HUD handbooks. However, the board may contract with a
management agent to provide oversight and supervision of day-to-day operations and long-term
planning.

The property was owner managed until August 1, 2010. The board then used the services of a
management consultant for the 8-month period ending March 31, 2011. On April 1, 2011, the
board hired a full-time HUD approved management agent to oversee the property until March
31, 2012.

Our audit objective was to determine whether the property violated its regulatory and loan
agreement with HUD.




                                                 4
                                 RESULTS OF AUDIT

Finding 1: The Property Violated Its Regulatory and Loan Agreements
with HUD
The property violated its regulatory and loan agreements with HUD by improperly spending
restricted funds, defaulting on its mortgage payment, and failing to submit financial statements to
HUD. This condition occurred because the property lacked controls over its financial operations
and its board did not provide adequate oversight of the property. As a result, the property could
not meet its operating needs or fund necessary long-term capital improvements to ensure safe
and affordable housing for its elderly residents.



 Funds From Restricted
 Accounts Were Improperly
 Spent

               The property improperly spent funds from three separate restricted accounts: the
               reserve for replacement account, the debt reserve account, and the tenant security
               deposit account.

               Reserve for Replacement Account

               Between April 2008 and November 2010, the property transferred the more than
               $240,000 balance in its reserve for replacement account to unrestricted accounts
               without the required HUD approval. HUD Handbook 4350.1, REV-1, paragraph 4-
               2, requires that the property receive approval before expending funds from its
               reserve for replacement account.

               The reserve balance would have been more than $278,000 if the property had not
               transferred the funds out of the account and if it had deposited the required monthly
               payments. The loan agreement requires the property to deposit funds each month
               into its reserve for replacement account. The required deposit amount was $1,032
               between July 2008 and October 2009. In November of 2009, HUD increased the
               required monthly deposit amount to $1,064. The property had not maintained a
               reserve for replacement account since November 2010.

               Debt Reserve Account

               Between July 2009 and October 2010, the property spent more than $69,000 from its
               debt reserve accounts on expenses not approved by HUD. HUD Handbook 4350.1,
               REV-1, paragraph 27-3, states that debt reserve funds are to be used exclusively for




                                                 5
            payments of principal and interest on the mortgage note or to meet escrows. The
            funds were used to cover operating expenses of the property.

            The property closed its debt reserve account in October 2010. The loan agreement
            between the property and HUD requires a debt reserve balance of more than
            $41,000. The property is required to fund the account with revenues in excess of 90
            days of expenses at the end of each fiscal year.

            Security Deposit Account

            From April through September 2010, the property transferred more than $26,000
            from its tenant security deposit account to operating accounts to cover operating
            expenses. HUD Handbook 4370.2, REV-1, paragraph 2-9, states that funds in the
            security deposit account must not be commingled with other funds. The tenant
            security deposit account was underfunded by more than $21,000 as of June 30,
            2011.

The Property Defaulted on Its
Mortgage Payment


            As of September 1, 2011, the property was 6 months in arrears on its mortgage
            payments, totaling $23,821. The loan agreement requires the property to make
            monthly mortgage payments to HUD in the amount of $3,403.

The Property Failed To Submit
Audited Financial Statements to
HUD

            The property last submitted audited financial statements to HUD in June 2008.
            The regulatory agreement requires the property to submit financial statements
            prepared by an independent auditor no later than 90 days after year end. In
            addition, HUD Handbook 4370.2, REV-1, paragraph 3-1, states that the owners
            are responsible for submitting audited financial statements to HUD.

The Property Lacked Controls
Over Its Financial Operations


            The property did not have written policies and procedures or financial controls in
            place to ensure that it always collected income it was entitled to receive and
            denied HUD’s request for a depository agreement for its restricted accounts.

            The property had no written policies and procedures for rent collection,
            procurement, disbursements, and maintenance. The board employed three



                                             6
           different property managers from June 2009 to February 2011. None of the
           property managers had written policies or procedures to guide them in managing a
           HUD property.

           The property did not have financial controls in place to ensure that it always
           collected income it was entitled to receive. From August 2009 to January 2011,
           the property requested its Section 8 voucher funds anywhere from 1 to 15 months
           late. It did not implement a proposed rent increase in 2009 and had not increased
           its rent since 1991. The property collected only $246 and $318 for its studio and
           one-bedroom units, respectively, although the HUD-approved market rents were
           $605 and $726. The following chart shows the differences between what the
           property collected for its studio and one-bedroom apartments and HUD’s
           corresponding approved market rents.




           In 2003, HUD requested that the property sign a depository agreement for its
           restricted accounts. The property denied HUD’s request. The depository
           agreement would have required financial institutions to receive approval from
           HUD before releasing restricted funds to the property and might have prevented
           the property from depleting its restricted accounts.

The Board Did Not Provide
Adequate Oversight of Property
Operations

           The board did not actively oversee the activities and performance of property
           management. During our audit period, the board had only five of the required
           seven members, and none of the members had received formal HUD training. In
           addition, the articles of incorporation required the board to meet only once each
           fiscal year. The board met as a formality and did not review documents of


                                            7
             financial position or make procurement decisions. Also, the former board
             president and the former property manager made procurement decisions without
             board knowledge or approval.

The Property Could Not Meet
Its Operating Needs

             As a result of the lack of board oversight, the property could not meet its
             operating needs or fund necessary long-term capital improvements to ensure safe
             and affordable housing for its residents. The property’s revenue was not
             sufficient to meet basic operating expenses such as electricity, gas, water, and its
             mortgage. The following diagram represents the total income and the basic
             operating expenses for the 12-month period ending November 2010.




Conclusion



             The property was unable to meet its current operating needs or fund necessary
             long term capital improvements because of a lack of board oversight. The
             property has been under control of its current HUD approved management agent
             since April 2011. HUD is currently working with the management agent to
             resolve the issues addressed in this report and should ensure that the management
             agent continues to manage the property until such time that the board can show
             that it has the capacity to manage the property.




                                               8
Recommendations

          We recommend that the Director, Kansas City Office of Multifamily Housing,

          1A.     Ensure that property management develops and implements controls over
                  rent collection, maintenance operations, disbursements, and procurement.

          1B.     Ensure that board members and management receive adequate HUD
                  training.

          1C.     Ensure that the property is managed by a HUD-approved management
                  agent until the property’s staff and board receive adequate training and
                  develop adequate controls to successfully operate the property.

          1D.     Develop a plan with the property to reestablish and fully fund its reserve
                  for replacement account. As of June 30, 2011, the underfunded amount
                  totaled $278,165.

          1E.     Develop a plan with the property to reestablish and fully fund its debt
                  reserve account to the required $41,093.

          1F.     Develop a plan with the property to fully fund its tenant security deposit
                  account to its current required obligation. As of June 30, 2011, the account
                  was underfunded by $21,196 .

          1G.     Develop a plan with the property to pay the $23,821 in arrears to become
                  current in its mortgage obligation.

          1H.     Work with the property to execute a depository agreement for the restricted
                  accounts.




                                             9
Finding 2: The Property Inappropriately Made Salary Payments to Its
Board President
The property inappropriately made salary payments to its board president. This condition
occurred because the board did not provide adequate oversight of property operations. As a
result, $8,500 was not available to help meet the property’s operating needs at a time when it was
in default.



 The Property Inappropriately
 Made Salary Payments to Its
 Board President


               The property inappropriately made $8,500 in salary payments to the board president
               from March to October 2010. The property’s regulatory agreement and by-laws
               stated that no board member could receive compensation for services. The
               regulatory agreement also stated that the board could not amend the by-laws without
               HUD approval. The board president made a motion during a February 2010 board
               meeting to amend the property by-laws to allow for board member compensation.
               The amendment passed, and the board president started receiving compensation in
               March 2010. However, the board did not receive the required HUD approval to
               amend its by-laws to allow for board member compensation.

 The Board Did Not Provide
 Adequate Oversight


               The board did not provide adequate oversight of property operations. As stated in
               finding 1, the board conducted business with only five of the required seven board
               members. Only four board members, including the board president, attended the
               meeting in February 2010 when the board amended the property by-laws. In
               addition, the board received no training or guidance from HUD.

 Funds Were Not Available To
 Help Meet the Property’s Needs


               As a result of the property’s inappropriate salary payments to the board president,
               $8,500 was not available to help meet its operating needs at a time when it was in
               default. As stated in finding 1, the property was 6 months in arrears in its mortgage
               obligation. The $8,500 could have covered more than 2 months of mortgage
               payments to HUD.




                                                 10
Recommendations



          We recommend that the Director, Kansas City Office of Multifamily Housing,

          2A. Work with the property to seek reimbursement from the former board
              president for the $8,500 in ineligible compensation he received.

          We also recommend that the Director of HUD’s Departmental Enforcement Center

          2B. Take appropriate administrative actions, up to and including debarment,
              against the property’s former board president for his part in inappropriately
              collecting compensation as a board member.




                                          11
                         SCOPE AND METHODOLOGY

Our review covered the period January 1, 2008, through March 31, 2011, and was expanded as
necessary. We conducted our fieldwork from May through September 2011 at the property located
at 310 Northwest Murray Road, Lee’s Summit, MO.

To achieve our audit objective, we conducted interviews with

      HUD’s multifamily management and staff located in St. Louis, MO, and Kansas City, KS;
      The property’s previous and current board members and staff;
      The property’s previous management consultant and the current management agent;
      Prior businesses that performed services for the property; and
      An independent accountant who prepared the property’s 2007 and 2008 audited financial
       statements.

We also reviewed the following documents:

      Federal regulations and HUD requirements;
      Regulatory agreement, loan agreement, and note;
      The property’s articles of incorporation and by-laws;
      Integrated Real Estate Management System and Tenant Rental Assistance Certification
       System data;
      Northridge Loan System payment history data;
      The property’s audited financial statements and other accounting records;
      Contracts with the management consultant and the current management agent;
      The property’s payroll and accounting records;
      The property’s bank statements, checks, and other associated records obtained directly from
       financial institutions; and
      The board meeting minutes.

We tested whether the tenant security deposit information on hand was accurate. We validated
the resident deposit ledger, and this ledger had a total of 90 tenants. We visited the property,
selected five tenant files from the resident deposit ledger, and reviewed the lease agreement for
each of the tenants. The lease agreement states what the required deposit is for each tenant. We
matched the required deposit on the resident deposit ledger to the security deposit total on the
lease agreement. We determined that the security deposit ledger was sufficiently reliable for the
purposes of this audit.

In addition, we obtained data from the Integrated Real Estate Management System and Tenant
Rental Assistance Certification System for background information.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit


                                               12
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               13
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
               We determined that the following internal controls were relevant to our audit
               objective:

                     Controls over the procurement of goods and services.
                     Controls over the property’s financial operations.
                     Controls regarding the oversight of the property.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies


               Based on our review, we believe that the following items are significant deficiencies:

                     The property lacked controls over its financial operations (finding 1).
                     The board did not provide adequate oversight of the property (findings 1
                      and 2).




                                                 14
                                   APPENDIXES

Appendix A

                SCHEDULE OF QUESTIONED COSTS

            Recommendation                            Ineligible 1/
                number

                   1D.                                 $278,165
                   1E.                                  $41,093
                   1F.                                  $21,196




1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.




                                            15
Appendix B

             AUDITEE COMMENTS




                    16
